June 30, 2009

LINDA J. WELCH
ACTING VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT:         Audit Report – Vehicle Maintenance Facilities Scheduled Maintenance –
                 National Capping Report (Report Number DR-AR-09-007)

This capping report focused on vehicle maintenance facility (VMF) operations
nationwide (Project Number 09XG001DR000). Our objectives were to assess the:
(1) monitoring and managing of VMF operations for effective and efficient use of
resources, and (2) completeness of cost data impacting the overall VMF operational
environment. This report focuses on improving operations from a headquarters
perspective. See Appendix A for additional information about this audit.

Conclusion

Monitoring Maintenance and Managing Resources

VMF management effectively completed the majority of required scheduled
maintenances; however, additional improvements were necessary in the areas to
ensure all required maintenance was completed and resources used efficiently. By
completing all maintenances and better optimizing the available VMF and contractor
resources, the Postal Service could save an estimated $195 million over 10 years.1 We
concluded in this report improved monitoring of vehicle maintenance completion and
management of resources by Postal Service Headquarters can also further improve
vehicle maintenance operations. Specifically,

    •   The existing Vehicle Management Accounting System (VMAS) process did not
        have the ability to track completed scheduled maintenance – it only counted
        maintenance-in-arrears. Insufficient controls allowed maintenance personnel to
        remove vehicles from “maintenance not completed” status (maintenance-in-
        arrears) by adjusting the schedule – resulting in some vehicles not receiving
        timely maintenance.




1
  The U.S. Postal Service Office of Inspector General (OIG) issued nine area audits on schedule maintenance
performance and use of resources. The recommendations included in the area reports should correct the majority of
the issues identified in the audits.


        This report has not yet been reviewed for release under FOIA or the Privacy
        Act. Distribution should be limited to those within the Postal Service with a
        need to know.
Vehicle Maintenance Facilities Scheduled                                                          DR-AR-09-007
 Maintenance - National Capping Report


    •   Headquarters Vehicle Operations did not have a process to help VMFs optimize
        resources.

Completing all required scheduled maintenance reduces the likelihood of vehicle
breakdown and vehicle safety problems. Effective use of VMF and local commercial
resources reduces the Postal Service’s overall maintenance cost.

During the audit, Postal Service Headquarters began developing a Vehicle Operations
Workload Criteria Model to improve the utilization of VMF and commercial resources.
See Appendix B for more information about this topic.

We recommend the Acting Vice President, Delivery and Post Office Operations:

1. Ensure Vehicle Management Accounting System or its replacement system has the
   capability to easily track vehicles with completed maintenances.

2. Institute a policy discontinuing the practice of adjusting the vehicle maintenance
   schedules for the sole purpose of eliminating vehicles from the “maintenance not
   completed” status – maintenance-in-arrears.

3. Implement the Vehicle Operations Workload Criteria Model to optimize the utilization
   of Vehicle Maintenance Facility and commercial resources.

Contract Repair and Maintenance Costs

The Postal Service’s VMAS did not include all costs necessary to ensure appropriate
fleet decisions. During fiscal year (FY) 2008, approximately 31 percent – more than
$40 million2 – of repair and maintenance costs performed by local commercial vendors
were not captured in the VMAS.3

These costs were not included primarily because management of the VMFs and vehicle
post office (VPO) officials did not ensure VMFs received copies of all contract repair and
maintenance invoices. As a result, Postal Service management did not always have
complete information to make the most appropriate fleet and vehicle complement
decisions. We will report the $40,505,382 as unrecoverable unsupported questioned
costs4 in our Semiannual Report to Congress. See Appendix B and Appendix C for
more information about this topic.




2
  This amount is approximately 6 percent of the total vehicle maintenance and repair costs for FY 2008.
3
  The area audits excluded some sites from review because of the difficulty in verifying all work performed by
contractors during FY 2007.
4
  An unsupported cost is a cost the OIG questions because of missing or incomplete documentation or because of
failure to follow required procedures.




                                                        2
Vehicle Maintenance Facilities Scheduled                                         DR-AR-09-007
 Maintenance - National Capping Report

We recommend the Acting Vice President, Delivery and Post Office Operations:

4. Establish an effective process for ensuring vehicle maintenance facility management
   and vehicle post office management include all contract repair and maintenance
   costs in the Vehicle Management Accounting System or its replacement system.

Management’s Comments

Management agreed with the findings in their initial comments, and in subsequent
correspondence, they also agreed with the recommendations and monetary impact.
Specifically, management plans to pursue maintenance tracking requirements in the
replacement system for VMAS and institute a policy discontinuing the adjusting of
vehicle maintenance schedules to eliminate vehicles from maintenance in arrears.
They also plan to implement the Vehicle Operations Workload Criteria Model to
optimize the utilization of resources, and establish an effective process for including all
repair and maintenance costs in VMAS or its replacement. We have included
management’s comments in their entirety in Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report. With
the exception of the VMAS replacement, management should address the other
recommendations by September 2009.

The OIG considers recommendation 4 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
management completes corrective actions. This recommendation should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.




                                             3
Vehicle Maintenance Facilities Scheduled                                       DR-AR-09-007
 Maintenance - National Capping Report

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Vice Presidents Area Operations
    Wayne W. Corey
    Katherine S. Banks




                                            4
Vehicle Maintenance Facilities Scheduled                                                            DR-AR-09-007
 Maintenance - National Capping Report


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service uses VMAS to code and track costs. VMAS is a computer-based
support system designed to collect, process, store, present, and communicate vehicle
maintenance data. The objective of VMAS is to provide a management tool for the
effective and efficient operation and maintenance of the Postal Service vehicle fleet by
providing timely and accurate cost accounting information on all aspects of fleet
operations and maintenance. The Vehicle Maintenance Cost Report in Dollars reflects
the total cost for all postal-owned vehicles assigned to a VMF and includes all contract
parts, material, and labor.

The Enterprise Data Warehouse (EDW) is a collection of data, including contract repair
and maintenance costs paid from Voyager and other sources stored in a single
database for reporting and analysis. Contract costs, whether paid with a Voyager Card,
Postal Service Form 8230, Authorization for Payment, or a Vehicle Repair Maintenance
Agreement are automatically transmitted to EDW when paid. However, contract costs
paid with a Voyager Card are not automatically reported in VMAS and must be manually
reported by VMF personnel. Vehicle Operations management stated it was not possible
to electronically send detailed Voyager commercial repairs cost data to VMAS because
of the number of product codes and breakout of parts, labor, vehicle washings, and
towing/shuttling; therefore, data must be manually input. Even the new accounting
system under consideration to replace VMAS would require a manual input of contract
invoice data to ensure all costs are reported.5

Headquarters Vehicle Operations implements and monitors national policies,
procedures, and systems for VMF operations. They provide areas and districts with
policies and procedures, tools and support, and communicate an overall strategic
vision. Area and district offices implement policies and provide local guidance for the
daily operations, budgeting, and managing of resources at VMFs.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our first objective was to assess the effectiveness of monitoring vehicle maintenance
and managing resources. To accomplish this, we reviewed the nine area audits6 and
identified nationwide issues for improvements in vehicle facility operations applicable to
headquarters. We examined the existing VMAS process for tracking maintenance and
managing resources and met with headquarters management about the development of
their workload requirements model.

5
  This problem is due to the incompatibility of cost data from the Voyager Card System. We referred the new VMAS
issues to the OIG Information Systems Directorate for further review.
6
  The OIG developed an optimization model that used operational data to establish baseline standards, key
characteristics, shuttle usage, and cost. Using this data, we established an optimum operating efficiency for each
VMF.




                                                         5
Vehicle Maintenance Facilities Scheduled                                       DR-AR-09-007
 Maintenance - National Capping Report

Our second audit objective assessed the completeness of cost data impacting the
overall VMF operational environment. To accomplish the objective, we reviewed EDW
for all contract repair and maintenance costs, and the General Ledger Account (GLA)
54543, reported by each area and district for FY 2008. We compared the EDW amount
of contract repair and maintenance costs (parts and labor) reported for each area and
district to the VMAS Cost Report in Dollars for variances in reporting. We judgmentally
selected six VMFs in six districts covering five Postal Service areas to review reported
data and discuss reporting procedures.

We conducted this audit work from October 2008 through June 2009 in accordance with
generally accepted government auditing standards and included tests of internal
controls that were considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient and appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We relied on data from VMAS
and EDW. We did not audit these systems but performed a limited review of data
integrity to support our reliance on the data. We discussed our observations and
conclusions with management officials on April 29, 2009 and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

We issued nine reports assessing whether VMFs accomplished all required scheduled
maintenance and integrated VMFs and local commercial resources for optimum
efficiency. The audit reports showed that VMFs did not always complete all scheduled
maintenances and could optimize VMF efficiency through the more effective use of VMF
and local commercial resources. Management agreed with our findings and
recommendations and generally agreed with the monetary impact on our prior reports.

                                              Report                             Monetary
                  Report Title               Number       Final Report Date       Impact
1    VMFs – Scheduled Maintenance in       DR-AR-09-005     April 23, 2009      $10,898,100
     the Eastern Area
2    VMFs – Scheduled Maintenance          DR-AR-09-003    January 27, 2009     $17,951,396
     Service in the Capital Metro Area
3    VMFs – Scheduled Maintenance          DR-AR-09-001   December 9, 2008      $14,817,650
     Service in the Northeast Area
4    VMFs – Scheduled Maintenance          DR-AR-08-011   September 30, 2008    $25,287,093
     Service in the New York Metro Area
5    VMFs – Scheduled Maintenance          DR-AR-08-010   September 30, 2008    $21,580,236
     Service in the Pacific Area
6    VMFs – Scheduled Maintenance          DR-AR-08-009   September 29, 2008    $28,224,843
     Service in the Great Lakes Area




                                             6
Vehicle Maintenance Facilities Scheduled                                       DR-AR-09-007
 Maintenance - National Capping Report


                                              Report                             Monetary
                  Report Title               Number        Final Report Date      Impact
7    VMFs – Scheduled Maintenance          DR-AR-08-008   September 29, 2008    $14,251,384
     Service in the Western Area
8    VMFs – Scheduled Maintenance          DR-AR-08-007   September 16, 2008    $27,620,773
     Service in the Southeast Area
9    VMFs – Scheduled Maintenance          DR-AR-08-006    August 14, 2008      $34,522,159
     Service in the Southwest Area




                                             7
Vehicle Maintenance Facilities Scheduled                                      DR-AR-09-007
 Maintenance - National Capping Report


                             APPENDIX B: DETAILED ANALYSIS

Although VMF management effectively completed the majority of required scheduled
maintenances, additional improvement was necessary. Specifically, improved
monitoring of VMF operations and managing of resources could ensure all maintenance
is tracked for completion, resources optimized, and all costs reported in VMAS.

Monitoring Operations and Managing of Resources

Our analysis of the nine area audit reports revealed the Postal Service could not readily
track vehicles with completed scheduled maintenance in VMAS. The process was to
track maintenance-in-arrears rather than scheduled maintenance completed.
Maintenance-in-arrears are indications of vehicles with scheduled maintenances not
completed; however, any adjustment to the schedule results in removing maintenance-
in-arrears status from the system. Additionally, VMF units did not have a process to
optimize the available VMF and local commercial vendor resources. Specifically, the
vehicle maintenance plan did not consider an optimum combination of both VMF and
commercial resources. For example, VMF unit officials often used local commercial
vendors for vehicle maintenance and repairs when using VMF resources would have
been more efficient and economical and vice versa. Finally, VMF officials used VMF
employees to shuttle vehicles from the VPO to the VMF when more economical means
existed. Likewise, Headquarters Vehicle Operations did not have a process to optimize
resources as well. See Tables 1, 2, and 3 for maintenances completed, use of
resources, and vehicle maintenance technician shuttling hours.

Completing all required scheduled maintenance reduces the likelihood of vehicle
breakdown and vehicle safety problems. Effective use of VMF and local commercial
resources reduce the Postal Service’s overall maintenance cost. The Postal Service is
currently evaluating a system as a potential replacement for VMAS. Management
stated any new system obtained to replace VMAS would have the capability to easily
track completed maintenances and not rely on tracking maintenance-in-arrears.

The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical manner
possible. The handbook requires a maintenance plan that provides for regular
examination and service of Postal Service-owned vehicles. VMF managers must
prepare a vehicle maintenance plan designating where and when each vehicle will
receive scheduled maintenance.

Headquarters Vehicle Operations began developing a Vehicle Operations Workload
Criteria Model to improve efficiency. Vehicle operations management stated the intent
of their model is to provide data to support annual budget requests, a cost analysis of
commercial and in-house repair scenarios, and a standardized workload projection for
VMFs to use in evaluating their maintenance program efficiency. The model will be
tested during FY 2009 and with plans to become operational in FY 2010.




                                            8
Vehicle Maintenance Facilities Scheduled                                                        DR-AR-09-007
 Maintenance - National Capping Report



Table 1: Scheduled Preventive Maintenance (SPM) Performed for Sampled VMFs

                                                 Required in                            Percentage
                        Area                      FY 2007            Performed          Performed
        Capital Metro                                 16,406              15,380                 94
        Eastern                                          9,357             8,901                     96
        Great Lakes                                     15,912            14,324                     90
        New York Metro                                  25,753            23,826                     93
        Northeast                                       14,776            14,483                     98
        Pacific                                         38,285            38,118                     99
        Southeast                                       25,131            23,953                     95
        Southwest                                       27,604            21,710                     79
        Western                                         27,675            27,336                     99
                 Total/Average                         200,899           188,031                     94
              Sources: VMAS data and OIG optimization model.

                                Table 2: VMF Efficiency – FY 2007

                          SPMs Performed                             SPMs Performed              Total
                                 by                                   Inefficiently by        Inefficiently
                                    Local         Total SPMs                    Local          Performed
          Area            VMF      Vendors        Performed7         VMF       Vendors           SPMs
    Capital Metro         13,049      2,368             15,380        1,980          322            2,302
    Eastern                7,011      1,890              8,901          992          235            1,227
    Great Lakes           10,970      3,354             14,324          690        1,893            2,583
    New York Metro        13,922      9,904             23,826        4,204          807            5,011
    Northeast             14,094        465             14,483           87        1,668            1,755
    Pacific               36,174      1,944             38,118          880          657            1,5378
    Southeast             17,395      6,558             23,953        1,183        3,704            4,887
    Southwest             18,251      3,365             21,616          436        1,538            1,974
    Western               23,501      3,835             27,336          310          244              554
    Total                154,367     33,683           187,937        10,762      11,068              21,830
    Sources: VMAS data and OIG optimization model.




7
  VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model estimated
the number completed by analyzing all work orders assigned to code 22 (scheduled maintenance) and, with some
adjustment, considered all work of at least 2 hours as an SPM.
8
  Eighty-one percent of the 1,537 SPMs were attributed to one VMF.




                                                      9
   Vehicle Maintenance Facilities Scheduled                                                          DR-AR-09-007
    Maintenance - National Capping Report


           Table 3: Vehicle Maintenance Technician Hours Used for Shuttling – FY 2007

                                                                                                        Cost of
                    Number of     Estimated     Total     Percentage       Shuttle                      Shuttle
                     Vehicle      Scheduled    Shuttle     of Direct     Hours Used     Equivalent    Hours Used
                   Maintenance   Maintenance    Hours    Maintenance         for       Maintenance         by
                   Technicians      Hours      Used in    Hours Used      Scheduled     Technician    Maintenance
 VMF Location       Assigned      Available    FY 2007   for Shuttling   Maintenance     Positions    Technicians
 Capital Metro            145       203,464     31,224             15         14,357             8       $617,925
 Eastern                    77      108,046     13,602             13          7,260             4        312,462
 Great Lakes              120       168,384     22,970             14         15,631             9        672,750
 New York Metro           211       303,497     23,358               8        11,785             6        507,239
 Northeast                134       185,222     17,538               9        13,083             7        563,092
 Pacific                  278       390,089     67,916             17         28,632            16      1,232,320
 Southeast                178       249,770     29,186             12         13,469             8        579,723
 Southwest                217       304,494     49,711             16         16,854            10        725,336
 Western                  204       286,254     45,415             16         19,038            11        819,396
 Total/Averages          1,564     2,199,220   300,920             14       140,109             79     $6,030,243
Sources: VMAS and OIG optimization model.

   Maintenance Cost Reporting In VMAS

   All costs associated with the maintenance and repair of vehicles were not included in
   the VMAS. In our nationwide review of all VMFs, we found that $40,505,382 in vehicle
   maintenance contract costs were not reported in VMAS. These costs accounted for
   more than 31 percent of the $130 million in contract vehicle repair and maintenance
   cost and more than 6 percent of $617 million in total vehicle repair and maintenance
   costs during FY 2008.

   This occurred because the Postal Service does not have an effective process for
   ensuring VMF management always received and inputted all vehicle maintenance
   contract costs into the VMAS. Specifically,

           •   Some VMFs had procedures in place to obtain contract invoices from vendors
               and VPOs; however, they did not always input the invoices into VMAS.

           •   In other situations, VPOs did not submit the required invoice for work performed
               by contractors.

   All costs associated with vehicle maintenance and repairs are necessary to ensure
   appropriate fleet decisions. A lack of complete vehicle costs can impact Decision
   Analysis Report projections and Equipment Maintenance Allowance vehicle cost
   comparisons. For example, VMAS cost data is relied upon to determine whether the
   cost to maintain and operate a postal-owned vehicle is less expensive than the amount
   paid for allowance for a carrier-provided vehicle. Incomplete VMAS cost data could
   result in decisions that might not be the most cost effective.




                                                         10
Vehicle Maintenance Facilities Scheduled                                                     DR-AR-09-007
 Maintenance - National Capping Report

See Table 4 for unreported contract costs by area. These costs comprise the
unrecoverable unsupported questioned costs in the audit. See Appendix C for
unreported contract costs by district.

            Table 4: Unreported Contract Repair Costs by Area – FY 2008
                               Contract Repair &    Contract Repair &
                                 Maintenance          Maintenance          Contract Repair
                                Costs Reported       Costs Reported       Costs Not Reported
                  Area              in EDW              in VMAS                in VMAS

            Capital Metro            $11,074,796            $6,768,414             $4,306,382

            Eastern                    21,131,134           14,856,857              6,274,277

            Great Lakes                24,177,956           21,200,744              2,977,212

            New York Metro             21,455,130           14,861,402              6,593,728

            Northeast                  19,303,430           14,227,746              5,075,684

            Pacific                    15,611,088           11,006,263              4,604,825

            Southeast                  25,813,467           21,272,611              4,540,856

            Southwest                  14,033,248           11,189,878              2,843,370

            Western                    18,145,212           14,856,164              3,289,048
                  Total             $170,745,461         $130,240,079             $40,505,382
           Sources: Costs obtained from EDW for GLA 54543 and VMAS Cost in Dollars Report.




                                                    11
Vehicle Maintenance Facilities Scheduled                                    DR-AR-09-007
 Maintenance - National Capping Report


     APPENDIX C: UNREPORTED CONTRACT COSTS BY DISTRICT – FY 2008

                                             Contract         Contract       Contract
                                             Repair &         Repair &        Repair
                                            Maintenance      Maintenance     Costs Not
                                             Costs in         Costs in      Reported in
    Area                    District           EDW              VMAS          VMAS
Capital Metro      Baltimore                  $4,255,378       $1,846,035    $2,409,343
                   Capital                       1,873,916      1,309,190       564,726
                   Greater South Carolina        1,387,062      1,049,098       337,964
                   Greensboro                     321,249         245,300        75,949
                   Mid-Carolinas                  546,458         108,674       437,784
                   Northern Virginia             1,842,150      1,628,868       213,282
                   Richmond                       848,583         581,249       267,334
Eastern            Appalachian                    627,237         431,160       196,077
                   Central Pennsylvania          1,638,138      1,215,264       422,874
                   Cincinnati                    4,200,982      3,462,203       738,779
                   Columbus                       957,557         364,894       592,663
                   Erie                           840,143         560,006       280,137
                   Kentuckiana                    649,911         412,252       237,659
                   Northern Ohio                 2,247,273      1,557,067       690,206
                   Philadelphia                  5,371,341      3,999,810     1,371,531
                   Pittsburgh                    1,048,539        483,777       564,762
                   South Jersey                  3,550,013      2,370,424     1,179,589
Great Lakes        Central Illinois              1,910,993      1,656,901       254,092
                   Chicago                       4,245,693      3,138,480     1,107,213
                   Detroit                       3,717,018      3,402,016       315,002
                   Gateway                       1,734,979      1,480,222       254,757
                   Greater Indiana                959,158         883,042        76,116
                   Greater Michigan              1,117,862      1,039,049        78,813
                   Lakeland                      4,021,888      3,604,579       417,309
                   Northern Illinois             3,209,400      2,986,767       222,633
                   Southeast Michigan            3,260,965      3,009,688       251,277
New York           Caribbean                     1,905,299        531,467     1,373,832
Metro              Central New Jersey            2,805,997      2,029,979       776,018
                   Long Island                   4,173,506      3,079,877     1,093,629
                   New York                      1,447,133      1,133,913       313,220




                                            12
Vehicle Maintenance Facilities Scheduled                                   DR-AR-09-007
 Maintenance - National Capping Report


                                            Contract         Contract       Contract
                                            Repair &         Repair &        Repair
                                           Maintenance      Maintenance     Costs Not
                                            Costs in         Costs in      Reported in
    Area                   District           EDW              VMAS          VMAS
New York           Northern New Jersey       $6,134,930       $4,700,464    $1,434,466
Metro              Triboro                      1,087,303        888,597       198,706
                   Westchester                  3,900,962      2,497,105     1,403,857
Northeast          Albany                       1,506,758      1,229,402       277,356
                   Boston                       1,430,937        906,296       524,641
                   Connecticut                  2,510,928      1,316,676     1,194,252
                   Maine                         537,252         391,206       146,046
                   Massachusetts                4,868,675      3,690,845     1,177,830
                   New Hampshire/Vermont        1,844,659      1,461,366       383,293
                   Southeast New England        4,122,014      3,501,049       620,965
                   Western New York             2,482,206      1,730,906       751,300
Pacific            Bay Valley                   1,578,341      1,161,597       416,744
                   Honolulu                      818,838         606,093       212,745
                   Los Angeles                  1,710,617        585,282     1,125,335
                   Sacramento                   1,724,094      1,063,422       660,672
                   San Diego                    3,791,882      3,224,181       567,701
                   San Francisco                2,635,153      2,141,986       493,167
                   Santa Ana                    2,046,518      1,504,308       542,210
                   Sierra-Coastal               1,305,647        719,394       586,253
Southeast          Alabama                      1,668,130      1,190,262       477,868
                   Atlanta                      2,632,567      2,299,162       333,405
                   Central Florida              3,717,032      2,562,340     1,154,692
                   Mississippi                   853,579         251,661       601,918
                   North Florida                1,481,584      1,096,222       385,362
                   South Florida                8,867,638      8,735,476       132,162
                   South Georgia                1,153,471        897,228       256,243
                   Suncoast                     3,216,044      2,723,232       492,812
                   Tennessee                    2,223,421      1,517,028       706,393
Southwest          Albuquerque                  1,184,218        904,889       279,329
                   Arkansas                      528,082         358,070       170,012
                   Dallas                       1,120,655        833,746       286,909




                                           13
Vehicle Maintenance Facilities Scheduled                                   DR-AR-09-007
 Maintenance - National Capping Report


                                            Contract         Contract       Contract
                                            Repair &         Repair &        Repair
                                           Maintenance      Maintenance     Costs Not
                                            Costs in         Costs in      Reported in
    Area                      District        EDW              VMAS          VMAS
Southwest          Fort Worth                   $929,390        $781,563      $147,827
                   Houston                      2,668,883      1,693,827       975,056
                   Louisiana                    1,743,346      1,372,240       371,106
                   Oklahoma                     2,789,444      2,677,756       111,688
                   Rio Grande                   3,069,229      2,567,787       501,442
Western            Alaska                        248,137         223,453        24,684
                   Arizona                      2,614,457      2,190,068       424,389
                   Big Sky                       650,050         633,801        16,249
                   Central Plains               1,353,750      1,046,910       306,840
                   Colorado/Wyoming             2,357,695      1,976,292       381,403
                   Dakotas                       970,175         911,846        58,329
                   Hawkeye                       979,462         815,546       163,916
                   Mid-America                  1,642,521      1,411,027       231,494
                   Nevada-Sierra                 404,074         182,637       221,437
                   Northland                    1,131,750        933,295       198,455
                   Portland                     1,171,012        870,960       300,052
                   Salt Lake City               1,089,596        765,326       324,270
                   Seattle                      3,089,576      2,589,847       499,729
                   Spokane                       442,958         305,156       137,802
Total                                      $170,745,461     $130,240,079   $40,505,382




                                           14
Vehicle Maintenance Facilities Scheduled                   DR-AR-09-007
 Maintenance - National Capping Report


                       APPENDIX D. MANAGEMENT’S COMMENTS




                                           15
Vehicle Maintenance Facilities Scheduled        DR-AR-09-007
 Maintenance - National Capping Report




                                           16
